HHS/OIG, Audit - "Review of Medicare Inpatient Acute-Care Bad Debts at St. Joseph Hospital for Calendar Year 1999 - St. Joseph Hospital, Chicago, Illinois," (A-05-02-00039)
Department
of Health and Human Services
"Review of Medicare Inpatient Acute-Care Bad Debts at St. Joseph Hospital
for Calendar Year 1999 - St. Joseph Hospital, Chicago, Illinois," (A-05-02-00039)
October 16, 2002
Complete Text of Report is available in PDF format
(251 kb). Copies can also be obtained by contacting the Office of Public Affairs
at 202-619-1343.
EXECUTIVE SUMMARY:
The objective of this audit was to determine if Medicare
inpatient acute-care bad debts claimed by St. Joseph Hospital on its cost report
for the calendar year ended December 31, 1999 met Medicare requirements.
Although our audit found that St. Joseph generally claimed inpatient acute-care
bad debts in accordance with Medicare reimbursement requirements, we noted some
exceptions resulting in questioned bad debt claims of $30,964.  We recommended
that St. Joseph coordinate with the Fiscal Intermediary to adjust their calendar
year 1999 cost report by $30,964 for overstated inpatient acute-care bad debts.
St. Joseph concurred with our findings and recommendation.